                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-01289-227




   Combined Assessment Program

            Review of the

  James J. Peters VA Medical Center

          Bronx, New York





August 5, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       James J. Peters VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                CAP Review of the James J. Peters VA Medical Center, Bronx, NY



                                            Table of Contents

                                                                                                                             Page

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     7

  Medication Management.........................................................................................                   9

  Coordination of Care...............................................................................................             10

  Acute Ischemic Stroke Care ...................................................................................                  11

  CLC Resident Independence and Dignity ...............................................................                           13

  MRI Safety ..............................................................................................................       15


Appendixes
  A. Facility Profile ....................................................................................................        17

  B. Strategic Analytics for Improvement and Learning ............................................                                18

  C. VISN Director Comments ..................................................................................                    21

  D. Facility Director Comments ...............................................................................                   22

  E. OIG Contact and Staff Acknowledgments .........................................................                              30

  F. Report Distribution .............................................................................................            31

  G. Endnotes ...........................................................................................................         32





VA OIG Office of Healthcare Inspections
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY



                                Executive Summary

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings. We conducted the review the week of May 5, 2014.

Review Results:          The review covered seven activities.                    We made no
recommendations in the following activity:

 Coordination of Care

The facility’s reported accomplishments were its response to Superstorm Sandy and
physician awards.

Recommendations: We made recommendations in the following six activities:
Quality Management: Complete actions from peer reviews, and report them to the Peer
Review Committee. Report Focused Professional Practice Evaluation results for newly
hired licensed independent practitioners to the Medical Executive Committee. Ensure
Cardiopulmonary Resuscitation Committee code reviews include screening for clinical
issues prior to the code that may have contributed to the occurrence of the code.
Require that electronic health record data is analyzed and reported at least quarterly in
Electronic Health Record Committee meeting minutes. Implement a quality control
policy for scanning. Ensure that the Blood Usage Review Committee includes a
member from Medicine Service, that the member from Surgery Service consistently
attends meetings, and that the blood/transfusions usage review process includes the
results of proficiency testing and the results of peer reviews when transfusions did not
meet criteria. Consistently follow actions taken when data analyses indicate problems
or opportunities for improvement to resolution in the Cardiopulmonary Resuscitation,
Operative and Other Procedures, Peer Review, and Environment of Care Committees.

Environment of Care:      Clean glucometers between patients, replace damaged
glucometer cases, and routinely clean optical examination equipment.

Medication Management:        Ensure clinicians conducting medication education
accommodate identified learning barriers and document the accommodations made to
address those barriers.

Acute Ischemic Stroke Care: Ensure clinicians complete and document National
Institutes of Health stroke scales for each stroke patient and screen patients for difficulty
swallowing prior to oral intake. Provide printed stroke education to patients upon
discharge.

Community Living Center Resident Independence and Dignity: Document the reasons
for discontinuing or not providing restorative nursing services when those services are
care planned.



VA OIG Office of Healthcare Inspections                                                           i
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY


Magnetic Resonance Imaging Safety: Establish written procedures for handling
emergencies in magnetic resonance imaging (MRI). Conduct cardiac and contrast
reaction emergency drills in MRI. Ensure radiologists and/or Level 2 MRI personnel
document resolution in patients’ electronic health records of all identified MRI
contraindications prior to the scan. Designate additional Level 2 MRI personnel, and
require that all designated Level 1 ancillary staff and Level 2 MRI personnel receive
annual level-specific MRI safety training. Ensure appropriate screening is in place to
restrict access to MRI Zones III and IV.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 21–29, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D.

                                                          Assistant Inspector General for

                                                              Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY



                              Objectives and Scope

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 CLC Resident Independence and Dignity

   	 MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through
February 24, 2014, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                          1
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the James J. Peters VA Medical Center, Bronx, New York, Report
No. 11-04566-163, April 23, 2012). We made repeat recommendations in QM.

During this review, we presented crime awareness briefings for 269 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
191 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Superstorm Sandy
On October 29, 2012, the Tri-State Area was impacted by Superstorm Sandy. In the
days prior, the facility actively prepared for the anticipated hazards of this severe
weather event with emphasis on notifying staff and patients and securing the physical
plant. When the Manhattan campus of the VA New York Harbor Healthcare System
was forced to close, the facility assumed the care of approximately 1,000 patients. In
addition, the Emergency Management Team collaborated with Nutrition and Hospitality
Service to arrange shelter-in-place for more than 120 staff essential to maintain
operations during the storm.        To address the severe storm-related employee
transportation challenges, the facility created a ride-share website; increased the
number of shuttles and provided fuel on an as needed emergency basis; and
communicated minute-by-minute updates regarding transportation, fuel availability, and
safety issues.

Physician Awards
Drs. William Bauman and Ann Spungen were declared finalists for the 2014 Service to
America Awards for their leadership of multidisciplinary work in spinal cord injury that
has led to the development of innovative approaches and effective interventions to
improve the health and quality of life for paralyzed persons.

Dr. Mary Sano, Director of Research and Director of the Alzheimer Research Disease
Center, was awarded the 2014 Federal Executive Board’s Employee of the Year Award
(Scientific Achievement). Dr. Sano provided scientific leadership and research
ingenuity in establishing the efficacy of vitamin E in the treatment of Alzheimer’s
disease. Dr. Sano joins previous facility “Distinguished Scientist” award winners
Dr. Rachel Yehuda (2008), Dr. John Eng (2009), and Dr. Gregory Elder (2011).


VA OIG Office of Healthcare Inspections                                                          2
                                            CAP Review of the James J. Peters VA Medical Center, Bronx, NY



                          Results and Recommendations

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                      Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met            Six months of PRC meeting minutes reviewed:
       selected requirements:                            None of the seven actions expected to be
        The PRC was chaired by the Chief of Staff         completed were reported to the PRC.
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
 X     Focused Professional Practice Evaluations for    Thirteen profiles reviewed:
       newly hired licensed independent practitioners    The results of six Focused Professional
       were initiated and completed, and results          Practice Evaluations were not reported to the
       were reported to the MEC.                          MEC.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                 3
                                              CAP Review of the James J. Peters VA Medical Center, Bronx, NY


NM               Areas Reviewed (continued)                                   Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 X     The process to review resuscitation events         Twelve months of Cardiopulmonary
       met selected requirements:                         Resuscitation Committee meeting minutes
        An interdisciplinary committee was               reviewed:
          responsible for reviewing episodes of care       There was no evidence that code reviews
          where resuscitation was attempted.                 included screening for clinical issues prior to
        Resuscitation event reviews included                the codes that may have contributed to the
          screening for clinical issues prior to events      occurrence of the codes. This was a repeat
          that may have contributed to the                   finding from the previous CAP review.
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        Surgical deaths with identified problems or
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
 X     The process to review the quality of entries in     Twelve months of data were collected but
       the EHR met selected requirements:                   were not analyzed or reported in EHR
        A committee was responsible to review              Committee meeting minutes.
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
 X     The policy for scanning non-VA care                 The facility did not have a scanning policy.
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                        4
                                                CAP Review of the James J. Peters VA Medical Center, Bronx, NY


NM             Areas Reviewed (continued)                                      Findings
 X     The process to review blood/transfusions            Twelve months of Blood Usage Review
       usage met selected requirements:                    Committee meeting minutes reviewed:
        A committee with appropriate clinical              The clinical representative from Surgery
         membership met at least quarterly to review         Service attended only one meeting, and there
         blood/transfusions usage.                           was no clinical representative from Medicine
        Additional data elements were routinely             Service.
         reviewed.                                          The review process did not include the results
                                                             of proficiency testing and the results of peer
                                                             reviews when transfusions did not meet
                                                             criteria.
 X     Overall, if significant issues were identified,      Corrective actions were not consistently
       actions were taken and evaluated for                  followed to resolution for the
       effectiveness.                                        Cardiopulmonary Resuscitation Committee,
                                                             the Operative and Other Procedures
                                                             Committee, and the PRC. This was a repeat
                                                             finding from the previous CAP review.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are completed and reported to the Peer Review Committee.

2. We recommended that processes be strengthened to ensure that Focused Professional
Practice Evaluation results for newly hired licensed independent practitioners are consistently
reported to the Medical Executive Committee.

3. We recommended that processes be strengthened to ensure that Cardiopulmonary
Resuscitation Review Committee code reviews include screening for clinical issues prior to the
code that may have contributed to the occurrence of the code.

4. We recommended that processes be strengthened to ensure that electronic health record
data is analyzed and reported at least quarterly in Electronic Health Record Committee meeting
minutes.

5.   We recommended that the facility implement a quality control policy for scanning.

6. We recommended that processes be strengthened to ensure that the Blood Usage Review
Committee includes a member from Medicine Service, that the member from Surgery Service
consistently attends meetings, and that the blood/transfusions usage review process includes



VA OIG Office of Healthcare Inspections                                                                     5
                                          CAP Review of the James J. Peters VA Medical Center, Bronx, NY


the results of proficiency testing and the results of peer reviews when transfusions did not meet
criteria.

7. We recommended that processes be strengthened to ensure that actions taken when data
analyses indicated problems or opportunities for improvement are consistently followed to
resolution in the Cardiopulmonary Resuscitation, Operative and Other Procedures, Peer
Review, and Environment of Care Committees.




VA OIG Office of Healthcare Inspections                                                               6
                                            CAP Review of the James J. Peters VA Medical Center, Bronx, NY


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

We inspected the intensive care, medical/surgical, and acute MH units and the CLC. We also
inspected the emergency department, the SDS/PACU areas, and the dental and eye clinics.
Additionally, we reviewed relevant documents, conversed with key employees and managers,
and reviewed 35 employee training records (20 SDS, 10 PACU, and 5 eye clinic). The table
below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM           Areas Reviewed for General EOC                                 Findings
 X      EOC Committee minutes reflected sufficient      Six months of EOC Committee meeting minutes
        detail regarding identified deficiencies,       reviewed:
        corrective actions taken, and tracking of        Minutes did not reflect that actions were
        corrective actions to closure.                     tracked to closure. (See recommendation 7
                                                           in QM.)
        An infection prevention risk assessment was
        conducted, and actions were implemented to
        address high-risk areas.
        Infection Prevention/Control Committee
        minutes documented discussion of identified
        problem areas and follow-up on implemented
        actions and included analysis of surveillance
        activities and data.
        Fire safety requirements were met.
        Environmental safety requirements were met.
  X     Infection prevention requirements were met.      In two of six patient care areas, we found dirty
                                                          glucometers.
                                                         In three of six patient care areas, we found
                                                          glucometer cases that were held together
                                                          with medical tape and were dirty.
        Medication safety and security requirements
        were met.
        Auditory privacy requirements were met.
        The facility complied with any additional
        elements required by VHA, local policy, or
        other regulatory standards.
          Areas Reviewed for SDS and the PACU
        Designated SDS and PACU employees
        received bloodborne pathogens training
        during the past 12 months.
        Designated SDS employees received
        medical laser safety training with the
        frequency required by local policy.




VA OIG Office of Healthcare Inspections                                                                 7
                                           CAP Review of the James J. Peters VA Medical Center, Bronx, NY


NM        Areas Reviewed for SDS and the PACU                             Findings
                          (continued)
        Fire safety requirements in SDS and on the
        PACU were met.
        Environmental safety requirements in SDS
        and on the PACU were met.
        SDS medical laser safety requirements were
        met.
        Infection prevention requirements in SDS and
        on the PACU were met.
        Medication safety and security requirements
        in SDS and on the PACU were met.
        Auditory privacy requirements in SDS and on
        the PACU were met.
        The facility complied with any additional
        elements required by VHA, local policy, or
        other regulatory standards.
                Areas Reviewed for Eye Clinic
        Designated eye clinic employees received
        laser safety training with the frequency
        required by local policy.
        Environmental safety requirements in the eye
        clinic were met.
X       Infection prevention requirements in the eye    In all five exam rooms, we found a thick layer
        clinic were met.                                 of dust on all of the optical equipment.
        Medication safety and security requirements
        in the eye clinic were met.
        Laser safety requirements in the eye clinic
        were met.
        The facility complied with any additional
        elements required by VHA, local policy, or
        other regulatory standards.

Recommendation

8. We recommended that processes be strengthened to ensure that glucometers are cleaned
between patients, damaged glucometer cases are replaced, and optical examination equipment
is cleaned routinely and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                8
                                              CAP Review of the James J. Peters VA Medical Center, Bronx, NY


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 34 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

 NM                      Areas Reviewed                                      Findings
        Clinicians conducted inpatient learning
        assessments within 24 hours of admission or
        earlier if required by local policy.
  X     If learning barriers were identified as part of    For five of the eight patients with identified
        the learning assessment, medication                 learning barriers, EHR documentation did not
        counseling was adjusted to accommodate              reflect medication counseling accommodation
        the barrier(s).                                     to address the barriers.
        Patient renal function was considered in
        fluoroquinolone dosage and frequency.
        Providers completed discharge progress
        notes or discharge instructions, written
        instructions were provided to
        patients/caregivers, and EHR documentation
        reflected that the instructions were
        understood.
        Patients/caregivers were provided a written
        medication list at discharge, and the
        information was consistent with the dosage
        and frequency ordered.
        Patients/caregivers were offered medication
        counseling, and this was documented in
        patient EHRs.
        The facility established a process for
        patients/caregivers regarding whom to notify
        in the event of an adverse medication event.
        The facility complied with any additional
        elements required by VHA or local policy.

Recommendation

9. We recommended that processes be strengthened to ensure that clinicians conducting
medication education accommodate identified learning barriers and document the
accommodations made to address those barriers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   9
                                             CAP Review of the James J. Peters VA Medical Center, Bronx, NY


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of 10 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

 NM                     Areas Reviewed                                      Findings
        Patients’ post-discharge needs were
        identified, and discharge planning addressed
        the identified needs.
        Clinicians provided discharge instructions to
        patients and/or caregivers and validated their
        understanding.
        Patients received the ordered aftercare
        services and/or items within the
        ordered/expected timeframe.
        Patients’ and/or caregivers’ knowledge and
        learning abilities were assessed during the
        inpatient stay.
        The facility complied with any additional
        elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 10
                                               CAP Review of the James J. Peters VA Medical Center, Bronx, NY


Acute Ischemic Stroke Care
The purpose of this review was to determine whether VHA facilities complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke. e

We reviewed relevant documents, the EHRs of 30 patients who experienced stroke symptoms,
and 8 staff training records (5 emergency department and 3 intensive care unit), and we
conversed with key employees. We also conducted onsite inspections of the emergency
department, a critical care unit, and three acute inpatient units. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility’s stroke policy/plan/guideline
       addressed all required items.
 X     Clinicians completed the National Institutes of     Twelve EHRs (40 percent) did not contain
       Health stroke scale for each patient within the      documented evidence of completed stroke
       expected timeframe.                                  scales.
       Clinicians provided medication (tissue
       plasminogen activator) timely to halt the stroke
       and included all required steps, and tissue
       plasminogen activator was in stock or
       available within 15 minutes.
       Stroke guidelines were posted in all areas
       where patients may present with stroke
       symptoms.
 X     Clinicians screened patients for difficulty         Twelve of the 29 applicable EHRs did not
       swallowing prior to oral intake of food or           contain documentation that patients were
       medicine.                                            screened for difficulty swallowing prior to oral
                                                            intake.
 X     Clinicians provided printed stroke education to     None of the 27 applicable EHRs contained
       patients upon discharge.                             documentation that stroke education was
                                                            provided to the patient/caregiver.
       The facility provided training to staff involved
       in assessing and treating stroke patients.
       The facility collected and reported required
       data related to stroke care.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

10. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.

11. We recommended that processes be strengthened to ensure that clinicians screen patients
for difficulty swallowing prior to oral intake.



VA OIG Office of Healthcare Inspections                                                                   11
                                          CAP Review of the James J. Peters VA Medical Center, Bronx, NY


12. We recommended that processes be strengthened to ensure that clinicians provide printed
stroke education to patients upon discharge and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                              12
                                             CAP Review of the James J. Peters VA Medical Center, Bronx, NY


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed 15 EHRs of residents (6 residents receiving restorative nursing services and
9 residents not receiving restorative nursing services but candidates for services). We also
observed two meal periods, reviewed four employee training/competency records and other
relevant documents, and conversed with key employees. The table below shows the areas
reviewed for this topic. The area marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

 NM                     Areas Reviewed                                      Findings
        The facility offered restorative nursing
        services.
        Facility staff completed and documented
        restorative nursing services, including active
        and passive range of motion, bed mobility,
        transfer, and walking activities, according to
        clinician orders and residents’ care plans.
        Resident progress towards restorative
        nursing goals was documented, and
        interventions were modified as needed to
        promote the resident’s accomplishment of
        goals.
  X     When restorative nursing services were care       Of the nine EHRs where restorative nursing
        planned but were not provided or were              services were care planned but were not
        discontinued, reasons were documented in           provided or were discontinued, two did not
        the EHR.                                           reflect the reasons.
        If residents were discharged from physical
        therapy, occupational therapy, or
        kinesiotherapy, there was hand-off
        communication between Physical Medicine
        and Rehabilitation Service and the CLC to
        ensure that restorative nursing services
        occurred.
        Training and competency assessment were
        completed for staff who performed restorative
        nursing services.
        The facility complied with any additional
        elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 13
                                           CAP Review of the James J. Peters VA Medical Center, Bronx, NY


NM         Areas Reviewed for Assistive Eating                             Findings
                Devices and Dining Service
 NA    Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

13. We recommended that processes be strengthened to ensure that staff document the
reasons for discontinuing or not providing restorative nursing services when those services are
care planned and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                               14
                                            CAP Review of the James J. Peters VA Medical Center, Bronx, NY


MRI Safety
The purpose of this review was to determine whether VHA facilities ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 33 employees (30 randomly
selected Level 1 ancillary staff and 3 designated Level 2 MRI personnel), and we conversed
with key managers and employees. We also reviewed the EHRs of 35 randomly selected
patients who had an MRI January 1–December 31, 2013. Additionally, we conducted a physical
inspection of one MRI area. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                    Areas Reviewed                                         Findings
X      The facility completed an MRI risk                Facility policy did not address procedures for
       assessment, there were documented                  handling emergencies in the MRI area, such
       procedures for handling emergencies in MRI,        as a cardiac arrest, a contrast reaction, or a
       and emergency drills were conducted in the         quench.
       MRI area.                                         Cardiac and contrast reaction emergency
                                                          drills were not conducted in the MRI area.
       Two patient safety screenings were conducted
       prior to MRI, and the secondary patient safety
       screening form was signed by the patient,
       family member, or caregiver and reviewed and
       signed by a Level 2 MRI personnel.
X      Any MRI contraindications were noted on the       Four of the nine applicable EHRs did not
       secondary patient safety screening form, and       contain documentation that all identified
       a Level 2 MRI personnel and/or radiologist         contraindications were addressed prior to
       addressed the contraindications and                MRI.
       documented resolution prior to MRI.
X      Level 1 ancillary staff and Level 2 MRI           Level 1 ancillary staff did not receive
       personnel were designated and received             level-specific annual MRI safety training.
       level-specific annual MRI safety training.        Although there were other staff who required
                                                          Level 2 access, the facility designated only
                                                          three MRI employees as Level 2 personnel.
                                                         The three designated Level 2 MRI personnel
                                                          did not receive level-specific annual MRI
                                                          safety training.
X      Signage and barriers were in place to prevent     Individuals other than screened patients and
       unauthorized or accidental access to Zones III     level 2 MRI staff were not screened prior to
       and IV.                                            entry into Zones III and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.




VA OIG Office of Healthcare Inspections                                                                15
                                            CAP Review of the James J. Peters VA Medical Center, Bronx, NY


NM              Areas Reviewed (continued)                                 Findings
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

14. We recommended that the facility establish written procedures for handling emergencies in
magnetic resonance imaging and that compliance be monitored.

15. We recommended that processes be strengthened to ensure that cardiac and contrast
reaction emergency drills are conducted in magnetic resonance imaging and that compliance be
monitored.

16. We recommended that processes be strengthened to ensure that radiologists and/or
Level 2 magnetic resonance imaging personnel document resolution in patients’ electronic
health records of all identified magnetic resonance imaging contraindications prior to the scan
and that compliance be monitored.

17. We recommended that additional Level 2 magnetic resonance imaging personnel be
designated, that processes be strengthened to ensure that all designated Level 1 ancillary staff
and Level 2 magnetic resonance imaging personnel receive annual level-specific magnetic
resonance imaging safety training, and that compliance with training be monitored.

18. We recommended that appropriate screening be in place to restrict access to magnetic
resonance imaging Zones III and IV.




VA OIG Office of Healthcare Inspections                                                                16
                                            CAP Review of the James J. Peters VA Medical Center, Bronx, NY
                                                                                              Appendix A


         Facility Profile (Bronx/526) FY 2014 through May 20141
Type of Organization                                                                     Tertiary
Complexity Level                                                                         1c-High complexity
Affiliated/Non-Affiliated                                                                Affiliated
Total Medical Care Budget in Millions                                                    $265.5
Number of:
    Unique Patients                                                                     21,844
    Outpatient Visits                                                                   224,204
    Unique Employees2                                                                   1,472
Type and Number of Operating Beds (April 2014):
    Hospital                                                                            245
    CLC                                                                                 80
    MH                                                                                  0
Average Daily Census (April 2014):
    Hospital                                                                            98
    CLC                                                                                 63
    MH                                                                                  NA
Number of Community Based Outpatient Clinics                                             4
Location(s)/Station Number(s)                                                            White Plains/526GA
                                                                                         Yonkers/526GB
                                                                                         South Bronx/526GC
                                                                                         Queens/526GD
VISN Number                                                                              3




1
    All data is for FY 2014 through May 2014 except where noted.

2
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period.



VA OIG Office of Healthcare Inspections                                                                   17
                                                                   CAP Review of the James J. Peters VA Medical Center, Bronx, NY
                                                                                                                     Appendix B

                                   Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                       18
                                                           CAP Review of the James J. Peters VA Medical Center, Bronx, NY



                                          Scatter Chart





VA OIG Office of Healthcare Inspections                                                                               19
                                                                                                         CAP Review of the James J. Peters VA Medical Center, Bronx, NY


                                                                         Metric Definitions
 Measure                       Definition                                                                               Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)        A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                  A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                               A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                     A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                              A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)           A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                            A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                        A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                   A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                     A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                           A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                     A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)        A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)                 A higher value is better than a lower value
 PSI                           Patient safety indicator                                                                 A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                         A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                           A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                  A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                     A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                    A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction                A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                   A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                  A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                      A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                           A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)               A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                               20
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:	      June 25, 2014

           From:	      Director, VA New York/New Jersey Veterans Healthcare
                       Network (10N3)

       Subject:	       CAP Review of the James J. Peters VA Medical Center,
                       Bronx, NY

             To:       Director, Baltimore Office of Healthcare Inspections (54BA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed the recommendations of the Combined Assessment
       Program Review draft report of the James J. Peters VA Medical Center
       conducted by the OIG team during the week of May 5, 2014.

       2. I concur with the eighteen recommendations for improvements set forth
       in the report.

       3. Should you have any questions, please contact Pamela Wright, VISN
       QMO, at 718-741-4143.




       Michael A. Sabo, FACHE
       Network Director




VA OIG Office of Healthcare Inspections                                                         21
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       June 25, 2014

          From:        Director, James J. Peters VA Medical Center (526/00)

       Subject:	       CAP Review of the James J. Peters VA Medical Center,
                       Bronx, NY

             To:	      Director, VA New York/New Jersey Veterans Healthcare
                       Network (10N3)

       1. We have reviewed the recommendations of the Combined Assessment
       Program draft report of the James J. Peters VA Medical Center conducted
       by the OIG team during the week of May 5, 2014

       2. We concur with the eighteen recommendations for improvements set
       forth in the report.

       3. Should you have any questions, please contact our Quality Manager at
       Ext. 5264.




       Erik Langhoff, MD

       Medical Center Director





VA OIG Office of Healthcare Inspections                                                         22
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY


                               Comments to OIG’s Report

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
actions from peer reviews are completed and reported to the Peer Review Committee.

Concur

Target date for completion: 11/1/14

Facility response: Systems improvement recommendations from Peer Review
Committee and service actions for final level 2 and 3 Protected Peer Reviews will be
tracked using excel database. The responses from the service chiefs and practice
chiefs related to provider recommendations for level 2 and 3 will be tracked and
documented in the peer review minute template. Items will remain open until
completion. The excel data base will be audited against Peer Review Committee
minutes over 6 months to ensure 90% of the actions and recommendations from Peer
Review discussions are being tracked and closed appropriately. This will be monitored
for a period of three months. Compliance: 90%

Recommendation 2. We recommended that processes be strengthened to ensure that
Focused Professional Practice Evaluation results for newly hired licensed independent
practitioners are consistently reported to the Medical Executive Committee.

Concur

Target date for completion: 09/30/14

Facility response: Due to changes in leadership for the credentialing and privileging
process a new plan has been developed to be able to track FPPE’s on a timely fashion.
The plan starts when an appointment, or privilege, is approved at the PSB, the FPPE
evaluation form will be generated and given to the Service Chief for completion. The
letter to the Service Chief and a copy of the FPPE will be included in the Provider’s
folder.

A note will be made in the minutes of the PSB that the FPPE has begun, with the due
date. This notice will not be removed until all requirements of the FPPE are completed.
A follow-up memo will be sent to the Service Chief one month prior to the expected date
of completion. A copy of all follow-ups will be included in the Provider’s folder. Once
the FPPE is returned to the PSB it will be signed by the Chief of Staff and recorded as
completed. All completed Focus Reviews will be reported in the next PSB meeting.
Close monitoring will be conducted monthly for a three month period to ensure
compliance and quarterly thereafter. Compliance: 90%




VA OIG Office of Healthcare Inspections                                                         23
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY


Recommendation 3. We recommended that processes be strengthened to ensure that
Cardiopulmonary Resuscitation Committee code reviews include screening for clinical
issues prior to the code that may have contributed to the occurrence of the code.

Concur

Target date for completion: 9/30/14

Facility response: Clinical data of occurring codes are reviewed at each quarterly CPR
committee meeting. Committee meeting minutes have not always reflected this due to
technological inexperience and decrease in supervision. We are in the process of
training an individual who is more experienced to assist with completing the minutes.
The committee chairperson will take more of a supervisory role. Thus minutes will
reflect monitoring of clinical issues during codes effective immediately (next meeting
July 2014). Monitoring for sustained improvement should occur for three months.
Compliance: 90%

Recommendation 4. We recommended that processes be strengthened to ensure that
electronic health record data is analyzed and reported at least quarterly in Electronic
Health Record Committee meeting minutes.

Concur

Target date for completion: 12/31/14

Facility response: The facility leaders met with the Chair of the Medical Records
Committee to discuss actions needed to ensure the committee follows the required
guidelines. A new agenda and minutes including reporting structure was developed to
follow actions and discussions of the committee quarterly meetings. A new co-chair
was identified, as well as a program assistance to assist in the follow up actions and
minutes taking of the committee. Reports and committee minutes will be saved in the
Facility Share drive and paper records will be kept for a year to ensure no information is
lost. The next committee meeting will take place in August 2014. Monitoring for
sustained improvement should occur for three consecutive months. Compliance: 90%

Recommendation 5. We recommended that the facility implement a quality control
policy for scanning.

Concur

Target date for completion: 12/31/14

Facility response: Facility is in the process of instituting a scanning unit where staff will
be specifically trained to scan all documents being incorporated into CPRS. This
process is currently done in a decentralized fashion. The protocol will be to scan, verify
and file. All scanned documents will then be verified accurate by a scanning quality
control staff member whose sole purpose will be to assure the legibility of all scanned
documents. The Clinical Applications coordinator will monitor 10% of scanned records


VA OIG Office of Healthcare Inspections                                                         24
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY


on a monthly basis and report to the Medical Records committee on a quarterly basis.
Compliance: 90%

Recommendation 6. We recommended that processes be strengthened to ensure that
the Blood Usage Review Committee includes a member from Medicine Service, that the
member from Surgery Service consistently attends meetings, and that the
blood/transfusions usage review process includes the results of proficiency testing and
the results of peer reviews when transfusions did not meet criteria.

Concur

Target date for completion: 9/30/14

Facility response: A meeting was conducted with the Chief of Staff and the Associate
Director to address the lack of attendance of the surgical representatives at the blood
usage committee. Three new members from Medicine Service were added to the
committee membership. In order to ensure providers attend committee meetings,
attendance will be monitored and those not attending will be reported to the Chief of
staff on a quarterly basis. This item will be added to the providers pay for performance
for FY 2015.

Proficiency testing and results of peer review are now standing agenda items. Three
providers agreed to do all clinical peer reviews when the transfusions did not meet
criteria. As discussed in the OIG interview, the blood bank technologist and the
supervisor medical technologist will continue to review 90% of all transfusions.
Monitoring for sustained improvement should occur for 3 consecutive months.
Compliance: 90%

Recommendation 7. We recommended that processes be strengthened to ensure that
actions taken when data analyses indicated problems or opportunities for improvement
are consistently followed to resolution in the Cardiopulmonary Resuscitation, Operative
and Other Procedures, Peer Review, and Environment of Care Committees.

Concur

Target date for completion: 12/30/14

Facility response: Met with chairs of individual committees and provided a standardized
minute document and tracking grid to ensure consistency of minutes taking and follow
up actions. The Quality department will review the committee minutes to ensure the
process is followed consistently. Monitoring for sustained improvement should occur for
three consecutive months. Compliance: 90%




VA OIG Office of Healthcare Inspections                                                         25
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY


Recommendation 8. We recommended that processes be strengthened to ensure that
glucometers are cleaned between patients, damaged glucometer cases are replaced,
and optical examination equipment is cleaned routinely and that compliance be
monitored.

Concur

Target date for completion: 09/30/14

Facility response: All glucometers that were found to be broken or in state of disrepair
were replaced by the Laboratory medical technologist for Point of care. The Blood
Glucose Procedure Book is currently on every unit. The procedure book states that the
glucometers and their cases are to be cleaned after each patient use by Hydrogen
Peroxide Wipes. The procedure for cleaning after each patient use was reinforced with
the staff. The SOP 11-9 Ancillary Blood Glucose Monitoring (BGM) is currently been
updated to include cleaning of glucometers and cases after each patient use. In
services will be provided to the staff to ensure processes are followed.

Optical examination equipment is cleaned by the Ophthalmology Technicians on a
weekly basis. Compliance will be monitored through environmental rounds conducted
by the clinic manager on a weekly basis. A tracking tool will be developed to track
compliance. Monitoring for sustained improvement should occur for three consecutive
months. Compliance: 90%

Recommendation 9. We recommended that processes be strengthened to ensure that
clinicians conducting medication education accommodate identified learning barriers
and document the accommodations made to address those barriers and that
compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: The clinicians conducting medication education will document
appropriate educational strategy for those individuals with identified learning barriers,
within the discharge medication reconciliation process. The clinical managers will
monitor compliance by reviewing 30 charts per month on the med surg units. This will
be reported to the PIC committee on a quarterly basis. Compliance: 90%

Recommendation 10. We recommended that processes be strengthened to ensure
that clinicians complete and document National Institutes of Health stroke scales for
each stroke patient and that compliance be monitored.

Concur

Target date for completion: 12/31/14




VA OIG Office of Healthcare Inspections                                                         26
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY


Facility response: The current data shows that the Bronx is at 64% compliance with
documentation of NIH stroke scale as of 2nd Qtr 2014. ICU, ER and Neurology service
will receive one to one education on the process of documenting NIH stroke scales,
using the stroke note which contains all elements needed for the compliance in this
process. The Chief of neurology will review all (100%) stroke notes on a monthly basis
to ensure compliance. Data will be reported quarterly to the PIC committee.
Compliance: 90%

Recommendation 11. We recommended that processes be strengthened to ensure
that clinicians screen patients for difficulty swallowing prior to oral intake.

Concur

Target date for completion: 12/31/14

Facility response: The current data shows that the Bronx is at 59% compliance with
documentation of swallowing evaluations as of 2nd Qtr 2014. ICU, ER and Neurology
service will receive one to one education on the process of documenting swallowing
evaluation, using the stroke note which contains all elements needed for the compliance
in this process. The Chief of Neurology will review all (100%) stroke notes on a monthly
basis to ensure compliance. Monitoring for sustained improvement should occur for
three consecutive months. Expected Compliance: 90%

Recommendation 12. We recommended that processes be strengthened to ensure
that clinicians provide printed stroke education to patients upon discharge and that
compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: Nursing discharge template will be adjusted to add documentation on
stroke education. Educational material will be added to the tools section in CPRS so
staff can print and provide to patients on discharge. The Unit Managers will monitor all
(100%) patients admitted with a stroke diagnosis nursing documentation to ensure
compliance. Monitoring for sustained improvement should occur for three consecutive
months. Expected Compliance: 90%

Recommendation 13. We recommended that processes be strengthened to ensure
that staff document the reasons for discontinuing or not providing restorative nursing
services when those services are care planned and that compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: Residents identified to be on the Restorative Nursing Program are
identified on admission, and then discussed during the interdisciplinary team meeting


VA OIG Office of Healthcare Inspections                                                         27
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY


and care plan meeting. The resident and/or NOK is involved as appropriate. If the
resident is deemed not a candidate or refuses, the reason is documented in CPRS. In
order to ensure compliance 10 charts per month will be monitored by the RN overseeing
the Restorative Nursing program. Monitoring for sustained improvement should occur
for three consecutive months. Expected compliance: 90%.

Recommendation 14. We recommended that the facility establish written procedures
for handling emergencies in magnetic resonance imaging and that compliance be
monitored.

Concur

Target date for completion: 09/30/14

Facility response: Facility has a written emergency procedure and policy for fire in the
MRI suite and had a drill conducted in June 2013. Through the MRI Safety Committee
procedures and policies to address cardiac arrest, contrast reaction and a quench in
MRI will be developed. The MRI Committee meets quarterly and is due to meet in
July 2014. Yearly drills will be scheduled, performed and compliance monitored through
the safety committee and documented in the committee minutes. Monitoring for
sustained improvement should occur for three consecutive months. Compliance: 90%

Recommendation 15. We recommended that processes be strengthened to ensure
that cardiac and contrast reaction emergency drills are conducted in magnetic
resonance imaging and that compliance be monitored.

Concur

Target date for completion: 9/30/14

Facility response: Through the MRI Safety Committee procedures and policies to
address cardiac arrest, contrast reaction and a quench in MRI will be developed. The
MRI Committee meets quarterly and is due to meet in July 2014. Yearly drills will be
scheduled, performed and compliance monitored through the safety committee and
documented in the committee minutes. Monitoring for sustained improvement should
occur for three consecutive months. Compliance: 90%

Recommendation 16. We recommended that processes be strengthened to ensure
that radiologists and/or Level 2 magnetic resonance imaging personnel document
resolution in patients’ electronic health records of all identified magnetic resonance
imaging contraindications prior to the scan and that compliance be monitored.

Concur

Target date for completion: 09/30/14

Facility response: Radiologist and technologist will document on the requisition form
how the potential imaging contraindication was resolved and have it signed by the


VA OIG Office of Healthcare Inspections                                                         28
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY


responsible technologist, or radiologist. The order will be scanned into the EHR. The
MRI Safety Committee will conduct random chart reviews (10 per month) to ensure
compliance. Monitoring for sustained improvement should occur for three consecutive
months. Compliance: 90%

Recommendation 17. We recommended that additional Level 2 magnetic resonance
imaging personnel be designated, that processes be strengthened to ensure that all
designated Level 1 ancillary staff and Level 2 magnetic resonance imaging personnel
receive annual level-specific magnetic resonance imaging safety training, and that
compliance with training be monitored.

Concur

Target date for completion: 09/30/14

Facility response: Level 1 and level 2 staff have been identified and assigned
level-specific annual MRI safety training. Level 2 staff will include biomedical
engineering personnel, designated housekeeping personnel, MRI radiologists, MRI
technologists, and Radiology Nurse. Training compliance will be monitored quarterly
through MRI Safety Committee. Compliance: 90%

For communication purposes, a sign will be posted at the entrance of the level 2 MRI
Suite that indicates that only personnel trained and assigned to this area will be allowed
in this particular section. The floor will also be marked with a red color to identify area
limits.

Recommendation 18. We recommended that appropriate screening be in place to
restrict access to magnetic resonance imaging Zones III and IV.

Concur

Target date for completion: 09/30/14

Facility response: The Chief of Radiology recommended to the radiology group, that
only level 1 and 2 trained personnel and screened patients will be allowed to enter
zone III or IV. Screening of personnel that includes; Nursing, Housekeepers, MRI
manufacturer’s technician, will be conducted by the MRI technologist every time there is
a request to enter Zone III or IV. The technician will then, keep completed forms in a
secure location. If a code is called in the MRI suite (zone III or IV) the patient will be
moved out to zone I or II for the team to intervene. An SOP will be developed to
address extreme circumstances where patient is unable to move out of the room.

In order to monitor compliance the MRI technologist will report to the Radiation Safety
Committee the number of instances non patient personnel had to enter Zone III or IV
and provide compliance with screening documents on a monthly basis. This will be
discussed at the next Radiation Safety committee for concurrence. Monitoring for
sustained improvement should occur for three consecutive months. Compliance: 100%



VA OIG Office of Healthcare Inspections                                                         29
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Donald Braman, RN, BSN, Team Leader
Contributors            Jennifer Christensen, DPM
                        Donna Giroux, RN
                        Terri Julian, PhD
                        Alison Loughran, JD, RN
                        Melanie Oppat, MEd, LDN
                        Joanne Wasko, LCSW
                        Sonia Whig, MS, LDN
                        Heather O’Malley, Special Agent, Office of Investigations
                        Kevin Russell, Special Agent, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Margie Chapin, RT (R, MR, CT), JD
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Sheyla Desir, MSN, RN
                        Marnette Dhooghe, MS
                        Lesa Gann, LCSW, RN
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Patrick Smith, M. Stat
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         30
                                     CAP Review of the James J. Peters VA Medical Center, Bronx, NY
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA New York/New Jersey Veterans Healthcare Network (10N3)
Director, James J. Peters VA Medical Center (526/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Kirsten E. Gillibrand, Charles E. Schumer
U.S. House of Representatives: Eliot Engel, Charles B. Rangel, José E. Serrano


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         31
                                          CAP Review of the James J. Peters VA Medical Center, Bronx, NY
                                                                                            Appendix G

                                                Endnotes

a
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009.

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation

   Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
   Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
d
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
	 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
	 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                         32
                                               CAP Review of the James J. Peters VA Medical Center, Bronx, NY



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.




VA OIG Office of Healthcare Inspections                                                                          33
